OIG Investigative Reports Fargo ND, December 12, 2011 - St. Michaels Man Pleads Guilty To Embezzlement From An Indian Tribal Organization
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
District of North Dakota
NEWS
St. Michael Man Pleads Guilty to Embezzlement from an Indian Tribal Organization
FOR IMMEDIATE RELEASE
December 12, 2011
FARGO - U.S. Attorney Timothy Q. Purdon announced that on Dec. 12, 2011, Raymond Jetty, III, 37, of St. Michael, N.D., pleaded guilty before U.S. District Judge Ralph R. Erickson to two incidents of embezzlement from two separate Indian tribal organization on the Spirit Lake Reservation.
Jetty, III was first charged, along with a number of his family members, with conspiracy to embezzle from the Spirit Lake Tribe's Vocational Rehabilitation Program. In pleading guilty to this offense, Jetty, III admitted that he allowed his wife, who was employed by Voc-Rehab, to use and sign his name to requests to obtain financial benefits that he was not entitled to receive.
Jetty, III was also charged with theft and embezzlement from a second Indian tribal organization, the Spirit Lake Tribe's Low Income Home Energy Assistance Program (LIHEAP). In pleading guilty to this separate charge, Jetty, III admitted that he applied for heating assistance and knowingly failed to include the total income of his household as is required on the application for eligibility.
The failure to include household members and income caused Jetty, III to receive heating assistance to which he would otherwise not have been entitled.
The charges of embezzlement from an Indian tribal organization are misdemeanors and each carry a statutory maximum penalty of one year imprisonment.
The case was investigated by the Federal Bureau of Investigation.
Sentencing for Jetty, III has been scheduled for March 12, 2012, in U.S. District Court in Fargo, at 2:30 pm.
Top
Printable view
Last Modified: 01/12/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov